wee  (CQCKLE

+ E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B ne ore contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-1085

DEPUTY SHANNON DEASEY, DEPUTY PETER
GENTRY, DEPUTY GARY BRANDT, SGT. MIKE
RUDE, AND COUNTY OF SAN BERNARDINO,
Petitioners,

v.

DANIELLA SLATER AND DAMIEN SLATER
(individually and as successors in interest, by and
through their guardian ad litem Sandra Salazar),
TINA SLATER AND DAVID BOUCHARD,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY TO BRIEF IN
OPPOSITION TO PETITION FOR WRIT OF CERTIORARI in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century

Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 2978 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 14th day of September, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska Zz. Chk
RENEE J. GOSS Q r ded rar ,
‘My Comm. Exp. September 5, 2023 .
Notary Public Affiant 39797
